APPENDIX

APPENDIX
TABLE OF CONTENTS
Memorandum in the United States Court of Appeals for the Ninth Circuit
(July 9, 2020) ................................................................................................... App. 1
Opinion and Order in the United States District Court for the District of
Oregon (December 13, 2018) ........................................................................... App. 5
Judgment in the United States District Court for the District of Oregon
(May 14, 2019) ............................................................................................... App. 23
Verdict in the United States District Court for the District of Oregon
(May 10, 2019) ............................................................................................... App. 24

i

Case: 19-35487, 07/09/2020, ID: 11746990, DktEntry: 40-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 9 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
REBECCA DIKES, Personal Representative
For the Estate of Shawn C. Dikes,

No.

U.S. COURT OF APPEALS

19-35487

D.C. No. 3:17-cv-00573-BR
Plaintiff-Appellant,
MEMORANDUM*

v.
UNITED STATES OF AMERICA,
Defendant-Appellee.

Appeal from the United States District Court
for the District of Oregon
Anna J. Brown, District Judge, Presiding
Submitted June 3, 2020**
Portland, Oregon
Before: BERZON and COLLINS, Circuit Judges, and CHOE-GROVES,*** Judge.
The surviving spouse and personal representative of the estate of Shawn
Dikes, Plaintiff-Appellant Rebecca Dikes, appeals from the district court’s

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes that this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Jennifer Choe-Groves, Judge for the United States
Court of International Trade, sitting by designation.
App. 1

Case: 19-35487, 07/09/2020, ID: 11746990, DktEntry: 40-1, Page 2 of 4

judgment entered after a bench trial finding Defendant not liable in this wrongfuldeath action brought under the Federal Tort Claims Act (“FTCA”), 28 U.S.C.
§§ 1346, 2671–80. On appeal, Plaintiff cites as error the district court’s evaluation
of causation using both the “but for” and the “substantial factor” standards and its
weighing of the evidence as to the standard of care and causation. Oregon law
governs this FTCA action. Id. §§ 1346(b)(1), 2674. We have jurisdiction under 28
U.S.C. § 1291, and we affirm.
We review the district court’s conclusions of law de novo and its factual
findings for clear error. OneBeacon Ins. Co. v. Haas Indus., Inc., 634 F.3d 1092,
1096 (9th Cir. 2011).
1. The district court did not prejudicially err in evaluating causation under
both the “but for” and “substantial factor” standards because it held that Plaintiff
failed to satisfy her burden under either standard. Before trial, the district court
confirmed that it would evaluate causation under the “substantial factor” standard,
but after Plaintiff rested, it held a detailed colloquy with the parties concerning
analyzing causation under the “but for” standard. At that colloquy, Plaintiff
restated her objection to the district court “even considering applying a ‘but for’
standard.” Even if we agreed with Plaintiff that only the “substantial factor” test
should have been considered, we perceive no basis for concluding that the district
court’s alternative application of the “but for” test affected the court’s independent

2

App. 2

Case: 19-35487, 07/09/2020, ID: 11746990, DktEntry: 40-1, Page 3 of 4

application of the “substantial factor” test. Nothing in the record suggests that the
district court misunderstood or misconstrued the “substantial factor” test.
2. The district court did not clearly err in weighing the evidence as to the
standard of care and causation. The district court found that Plaintiff did not meet
her burden of showing (1) that the cause of Mr. Dikes’ death was the Portland
Veterans Affairs Medical Center’s (“VA”) failure to order specific diagnostic tests
that would have identified an obstructed bile duct or (2) that any failure to treat the
obstructed bile duct breached the standard of care. Defendant’s medical experts,
Drs. Levitsky, Fix, and Jen, opined that Mr. Dikes’ post-transplant medical
treatment at the VA met the standard of care because, based on Mr. Dikes’
condition, it was not prudent to perform further diagnostic testing aimed at
identifying an obstructed bile duct. As to causation, Drs. Levitsky and Fix each
opined that Mr. Dikes likely died of an aggressive form of recurrent hepatitis C,
which likely developed during his critical illness, and not because of an
undiagnosed biliary obstruction. Although Plaintiff’s two medical experts testified
to the contrary, it was not clear error for the district court to credit the opposing
expert analyses as equally weighted. See United States v. Elliott, 322 F.3d 710,
715 (9th Cir. 2003). In short, Plaintiff has failed to show that the district court’s
decision was clearly erroneous, because the stipulated facts, combined with the
evidence adduced at trial—the lab results, diagnostic tests, post-transplant liver

3

App. 3

Case: 19-35487, 07/09/2020, ID: 11746990, DktEntry: 40-1, Page 4 of 4

biopsies, autopsy report, death certificate, medical expert reports, and testimony
from VA treating physicians and competing medical experts—supported the
district court’s ultimate finding that Plaintiff failed to prove a breach in the
standard of care in a manner that was either a “substantial factor” or the “but for”
cause of Mr. Dikes’ death.
AFFIRMED.1

1

Because we uphold the nonliability finding, we do not address Plaintiff’s appeal of the adverse
summary judgment ruling holding applicable Oregon law’s cap on the recovery of noneconomic
damages.

4

App. 4

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
REBECCA DIKES, Personal
Representative for the Estate
of Shawn C. Dikes,

3:17-cv-00573-BR
OPINION AND ORDER

Plaintiff,
v.
UNITES STATES OF AMERICA,
Defendant.
PATRICK D. ANGEL
Angel Law P.C.
3 Centerpointe Dr., Suite 190
Portland, OR 97223
(503) 953-8224
Attorney for Plaintiff
BILLY J. WILLIAMS
United States Attorney
SEAN E. MARTIN
Assistant United States Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR 97204-2902
(503) 727-1000
Attorneys for Defendant
BROWN, Senior Judge.
This matter comes before the Court on Defendant United
1 - OPINION AND ORDER
App. 5

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 2 of 18

States of America's Motion (#27) for Partial Summary Judgment.
For the reasons that follow, the Court GRANTS Defendant's
Motion.

BACKGROUND

Plaintiff Rebecca Dikes as Personal Representative of the
Estate of Shawn C. Dikes, her husband, brings this wrongful­
death action pursuant to the Federal Tort Claims Act (FTCA), 28
U.S.C. § 1346(b) (1).

Plaintiff alleges the Portland Veterans

Affairs Medical Center was negligent in providing medical
services to her husband.

Plaintiff seeks damages of $8,000,000

for (1) economic damages for loss of earnings, loss of earning
capacity, and out-of-pocket expenses and (2) noneconomic damages
for pain, suffering, mental anguish, death, loss of enjoyment,
and loss of companionship.

STANDARDS
I.

Summary Judgment

Summary judgment is appropriate when "there is no genuine
dispute as to any material fact and the movant is entitled to
judgment as a matter of law."

Washington Mut. Ins. v. United

States, 636 F.3d 1207, 1216 (9th Cir. 2011).
Civ. P. 56(a).

See also Fed. R.

The moving party must show the absence of a

2 - OPINION AND ORDER
App. 6

Case 3:17-cv-00573-BR

Document 32

dispute as to a material fact.

Filed 12/13/18

Page 3 of 18

Rivera v. Philip Morris r Inc.,

395 F. 3d 1142, 1146 (9th Cir. 2005).

In response to a properly

supported motion for summary judgment, the nonmoving party must
go beyond the pleadings and show there is a genuine dispute as
to a material fact for trial.
one .

Id.

"This burden is not a light

The non-moving party must do more than show there

is some 'metaphysical doubt' as to the material facts at issue. "

In re Oracle Corp. Sec. Litig., 627 F. 3d 376, 387 (9th Cir.
2010) (citation omitted).
A dispute as to a material fact is genuine "if the evidence
is such that a reasonable jury could return a verdict for the
nonmoving party. "

Villiarimo v. Aloha Island Air r Inc., 281

F. 3d 1054, 1061 (9th Cir. 2002) (quoting Anderson v. Liberty

Lobby r Inc., 477 U. S. 242, 248 (1986)).

The court must draw all

reasonable inferences in favor of the nonmoving party.

v. Verity r Inc., 606 F. 3d 584, 587 (9th Cir. 2010).

Sluimer

"Summary

judgment cannot be granted where contrary inferences may be
drawn from the evidence as to material issues. "

Easter v. Am.

W. Fin., 381 F. 3d 948, 957 (9th Cir. 2004) (citation omitted).

A

"mere disagreement or bald assertion" that a genuine dispute as
to a material fact exists "will not preclude the grant of
summary judgment. "

Deering v. Lassen Cmty. Coll. Dist. r No.

2:07-CV-1521-JAM-DAD, 2011 WL 202797, at *2 (E.D. Cal. , Jan. 20,
3 - OPINION AND ORDER
App. 7

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 4 of 18

2011) (citing Harper v. Wallingford, 877 F.2d 728, 731 (9th Cir.
1989) ) .

When the nonmoving party's claims are factually

implausible, that party must "come forward with more persuasive
evidence than otherwise would be necessary."

LVRC Holdings LLC

v. Brekka, 581 F. 3d 1127, 1137 (9th Cir. 2009) (citation
omitted) .
The substantive law governing a claim or a defense
determines whether a fact is material.

Miller v. Glenn Miller

Prod., Inc., 454 F. 3d 975, 987 (9th Cir. 2006).

If the

resolution of a factual dispute would not affect the outcome of
the claim, the court may grant summary judgment.
II.

Id.

Oregon's Noneconomic Damages Cap

Pursuant to Oregon law, an award of noneconomic damages is
limited as follows:
Except for claims subject to ORS 30.260 to 30.300 [the
Oregon Tort Claims Act] and ORS chapter 656 [the
Oregon Workers' Compensation Act], in any civil action
seeking damages arising out of bodily injury,
including emotional injury or distress, death or
property damage of any one person including claims for
loss of care, comfort, companionship and society and
loss of consortium, the amount awarded for noneconomic
damages shall not exceed $500,000.
Or. Rev. Stats. § 31.710(1).

1

1 This statute was originally enacted in 1987 as Oregon
Revised Statutes § 18. 560(1).

4 - OPINION AND ORDER
App. 8

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 5 of 18

DISCUSSION

Damages awarded pursuant to the FTCA are determined under
the law of the state in which the allegedly tortious act or
omission occurred.
(1992).
2013).

Molzof v. United States, 502 U. S. 301, 305

See also Liebsack v. U.S., 731 F.3d 850, 855 (9th Cir.
Thus, Defendant contends Plaintiff's recovery for

noneconomic damages in this case is limited to the $500,000
statutory noneconomic damages cap pursuant to Oregon Revised
Statutes § 31.710(1).

Defendant relies on Greist v. Phillips,

322 Or. 281 (1995), to support its position
Plaintiff, in response, contends her noneconomic damages
are not limited to $500,000 on the ground that application of
Oregon's damages cap was "significantly changed" by the Oregon
Supreme Court's holding in Horton v. Oregon Health and Science
University, 359 Or. 168 (2016).

Plaintiff asserts (1) Horton

removed any distinction between application of the statutory
damages cap to wrongful-death claims and personal-injury claims,
(2) the application of the statutory-damages cap is "highly
case-specific" and cannot be applied as a matter of law, and
(3) a determination as to whether the statutory cap is
applicable cannot be made until evidence of Plaintiff's
noneconomic damages is presented at trial.

5 - OPINION AND ORDER
App. 9

Case 3:17-cv-00573-BR

I.

Document 32

Filed 12/13/18

Page 6 of 18

Greist v. Phi11ips (1995)

From 1967 until 1987 when the Oregon Legislature enacted
the statutory-damages cap at issue in Defendant's Motion, there
was not a cap on noneconomic damages under Oregon law.
In 1995 the Oregon Supreme Court in Greist v. Phillips
addressed whether the statutory-damages cap applies to a claim
for wrongful death and whether that cap violates provisions of
the Oregon state and federal constitutions.
In Greist the plaintiff brought a wrongful-death action
pursuant to Oregon Revised Statutes § 30. 020 against the
defendants for their alleged negligence that resulted in a
motor-vehicle accident and the death of the plaintiff's 10month-old child.

In addition to economic damages, the jury

awarded $1, 500, 000 to the plaintiff for noneconomic damages.
Pursuant to the statutory-damages cap, the trial court reduced
the noneconomic damages to $500, 000.

On the plaintiff's appeal

the Oregon Court of Appeals reversed the trial court's decision.
128 Or. App. 390 (1994).

The Oregon Supreme Court, however,

affirmed the trial court's decision and held a wrongful-death
claim is a statutory creation that did not exist at common law,
that the statutory cap on noneconomic damages does not violate
either state or federal constitutional provisions, and that the
statutory-damages cap does not violate the remedies provision
6 - OPINION AND ORDER
App. 10

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 7 of 18

(Article I, section 10) of the Oregon Constitution "when the
legislature alters (or even abolishes) a cause of action, so
long as the party injured is not left entirely without a
remedy."

322 Or. at 290, 300 (citing Hale v. Port of Portland,

308 Or. 508, 523 (1989)).

The court also noted

[t]he remedy for wrongful death is substantial, not
only because 100 percent of economic damages plus up
to $500,000 in noneconomic damages is a substantial
amount, but also because the statutory wrongful death
action in Oregon has had a low limit on recovery for
113 years of its 133-year history.
322 Or. at 291.

Moreover, the court concluded the statutory­

damages cap does not violate the privileges and immunities
provision (Article I, section 20) of the Oregon Constitution
because "[n]othing in the wording of [the constitutional
provision] restricts the legislature's authority to set a
substantive limitation on a purely statutory remedy."

322 Or.

at 296. 2
As to the alleged violation of federal due-process rights,
the court stated:
The Oregon legislature did not act in a "demonstrably
arbitrary or irrational" way when it enacted ORS
Although the court also found the statutory-damages cap
does not violate the right to a jury trial (Article I, section
17 and Article VII (Amended), §3) of the Oregon Constitution
(322 Or. at 295), that issue is irrelevant here because
Plaintiff's action is brought pursuant to the FTCA and a jury
trial is "impermissible" as a matter of federal law. Nurse v.
United States, 266 F.3d 996, 1005 (9th Cir. 2000).
2

7 - OPINION AND ORDER
App. 11

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 8 of 18

The legislative history of that
18.560(1) .
provision shows that the purpose of the limitation on
noneconomic damages .
. was to reduce the costs of
insurance premiums and litigation.
322 Or. at 298-99.

Finally, the court concluded the statutory-

damages cap does not violate federal equal-protection rights on
the grounds that the statute "does not categorize the plaintiff
on the basis of an inherently suspect characteristic" and
does not jeopardize the exercise of a recognized
fundamental right in this case, because the right to
collect damages for wrongful death is a statutory
right only, which has incorporated a dollar limit on
recovery for most of its existence .
[and] there
existed a rational basis for the legislature to impose
the statutory limit.
322 Or. at 300.
Following Greist, Oregon state courts and courts in this
district have held the statutory-damages cap on noneconomic
damages applies to wrongful-death claims.

See, e.g., Hughes

v. PeaceHealth, 3 4 4 Or. 1 4 2 (2008) ; Sonsteng v. Dominican
Sisters of Ontario, Inc., No. 2: 06-cv-00476-SU, 2007 WL 2984 002
(D. Or. Oct. 9, 2007) ; Glenn v. Washington County, No. 3:08-cv00959-MO, 2010 WL 11579692 (D. Or. Apr. 13, 2010) ; Estate of
Glenn Severns v. Alcoa, No. 3:10-cv-00834 -HA, 2010 WL 364 99 4 8
(D. Or. Sept. 14, 2010).
II.

Horton v. Oregon Hea1th and Science University (2016)
In 2016 in Horton v. Oregon Health and Science University

8 - OPINION AND ORDER
App. 12

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 9 of 18

the Oregon Supreme Court addressed the issue as to whether the
statute limiting a state employee's tort liability violates
provisions of the Oregon Constitution.
In Horton the plaintiff, on behalf of her minor child,
brought a personal-injury action against a state university and
the surgeon it employed and alleged the defendants were
negligent when performing cancer surgery on her child resulting
in a liver transplant, spleen removal, additional surgeries, and
lifetime monitoring due to risks from the surgeon's actions.
The defendants admitted liability, and the issue of plaintiff's
damages was tried to a jury.

The jury awarded the plaintiff

over $6 million in economic damages and $6 million in
noneconomic damages.

The trial court granted the university's

motion to reduce the verdict to $3,000,000 under the Oregon Tort
Claims Act (OTCA), Oregon Revised Statutes § 30. 265.

The trial

court, however, denied the surgeon's motion to reduce the
verdict against him on the ground that the OTCA, as applied to a
state employee, violates the remedy and jury-trial provisions of
the Oregon Constitution.

The trial court entered a limited

judgment against the surgeon for the full amount of awarded
damages.
On direct appeal the Oregon Supreme Court reversed the
trial court's limited judgment against the surgeon and held
9 - OPINION AND ORDER
App. 13

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 10 of 18

(1) the remedy clause of the state constitution does not protect
only those causes of action that pre-existed the constitution's
adoption, (2) the OTCA does not violate the remedy clause,
(3) the civil jury provision of the state constitution does not
limit the legislature's authority to define the extent of
damages available, and ( 4 ) the OTCA is not unconstitutional
under the jury-trial provisions of the state constitution.

359

Or. 168 (2016).
III. Oregon Case Law after Horton

After the Horton decision the Oregon Court of Appeals
applied holding in three personal-injury cases and held in each
case that the $500,000 statutory-damages cap applied to the
plaintiff's claim, but the court also found the statute violated
the remedy clause of the Oregon Constitution.
In Vasquez v. Double Press Mfg., Inc. , 288 Or. App. 503
(2017), rev. allowed, 362 Or. 665 (2018), the plaintiff was
injured while using a bale-cutting machine and brought a claim
of negligence against the machine manufacturer.

The jury

awarded plaintiff $6,199,090. 02 in damages with $ 4 ,860,000 of
that amount for noneconomic damages.

The defendant moved to

limit the noneconomic damages to the $500,000 statutory-damages
cap, but the trial court denied the defendant's motion.
Court of Appeals initially affirmed the trial court.
10 - OPINION AND ORDER
App. 14

The

278 Or.

Case 3:17-cv-00573-BR

App. 77 (2016).

Document 32

Filed 12/13/18

Page 11 of 18

The defendant, however, sought reconsideration

of that decision.

The court granted reconsideration and

withdrew its former opinion.

On reconsideration the Court of

Appeals again affirmed the trial court's decision on the ground
that the statutory-damages cap violated the remedy clause and
would leave the plaintiff with a remedy that was a "paltry
fraction" of the damages he sustained and could otherwise
recover.

288 Or. App. at 525-26.

In Rains v. Stayton Builders Mart r Inc. , 289 Or. App. 672
(2018), the worker was injured when a board on which he was
standing broke.

He fell 16 feet to the ground, which resulted

in his paraplegia.

The worker and his wife brought claims

against the retailer and the manufacturer of the board for
strict products liability and loss of consortium.

The jury

awarded the plaintiffs $5,237,700 in economic damages and
$4,137,500 in noneconomic damages.

The manufacturer moved to

reduce the noneconomic damages to the $500,000 statutory-damages
cap.

The trial court denied the manufacturer's motion, reduced

the award based on comparative fault found by the jury, and
entered a judgment that included noneconomic damages exceeding
the statutory-damages cap.

The Court of Appeals again affirmed

the limited judgment in favor of the plaintiffs on the ground
that the statutory-damages cap violated the remedy provision of
11 - OPINION AND ORDER
App. 15

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 12 of 18

the Oregon Constitution.
In Busch v. Mcinnis Waste Systems, Inc., 292 Or. App. 820
(20 18), the plaintiff was injured crossing the street when he
was struck by the defendant's garbage truck, which resulted in
the amputation of the plaintiff's leg.

The plaintiff filed a

personal-injury action against the company.

The defendant

admitted liability, and the case proceeded to trial on the issue
of damages.

The jury awarded the plaintiff over $3,000,000 in

economic damages and $10,500,000 in noneconomic damages.

The

defendant moved to reduce the noneconomic damages to the
$500,000 statutory-damages cap, and the trial court granted the
defendant's motion.

The Court of Appeals reversed the trial

court and held the statutory damages cap violated the remedy
clause.
IV.

Analysis
A.

Plaintiff's noneconomic damages are capped at $500,000
under Oregon law in this wrongful-death action.

Plaintiff acknowledges the statutory-damages cap "may
be" unconstitutional in a wrongful-death action as a result of
the court's decision in Horton.

Defendant, in response, points

out that Horton did not involve a wrongful-death action, and the
courts in Horton and its progeny specifically addressed the
statutory-damages cap as to personal-injury cases.
12 - OPINION AND ORDER
App. 16

Defendant,

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 13 of 18

therefore, contends neither Horton nor its progeny diminished
the holding in Greist.

This Court agrees.

In Horton the plaintiff brought a person-injury
action.

The court noted the remedy clause "does not protect

only those causes of action that pre-existed 1857 [when the
Oregon Constitution was adopted], nor does it preclude the
legislature from altering either common-law duties or the
remedies available for breach of those duties. n

359 Or. at 219.

The court, however, then set out three analyses to use to
determine when the remedy clause limits legislative
determination of damage awards:
In determining the limits that the remedy clause
places on the legislature, our cases have considered
three general categories of legislation. First, when
the legislature has not altered a duty but has denied
a person injured as a result of a breach of that duty
any remedy, our cases have held that the complete
denial of a remedy violates the remedy clause. See
Noonan r 161 Or. at 222-35, 88 P. 2d 808 (summarizing
Mattson and cases following it). Similarly, our cases
have held that providing an insubstantial remedy for a
breach of a recognized duty also violates the remedy
clause. Compare Clarke r 343 Or. at 608, 610, 175 P. 3d
418 ( $200, 000 capped damages not substantial in light
of $12, 000, 000 in economic damages and $17, 000, 000 in
total damages), with Howell r 353 Or. at 376, 298 P. 3d
1 ($200, 000 capped damages substantial in light of
$507, 500 in total damages).
Second, the court has recognized that the reasons for
the legislature's actions can matter. For example,
when the legislature has sought to adjust a person's
rights and remedies as part of a larger statutory
scheme that extends benefits to some while limiting
13 - OPINION AND ORDER
App. 17

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 14 of 18

benefits to others, we have considered that quid pro
quo in determining whether the reduced benefit that
the legislature has provided an individual plaintiff
is "substantial" in light of the overall statutory
scheme. Hale, 308 Or. at 523, 783 P. 2d 506.
Third, the legislature has modified common-law duties
and, on occasion, has eliminated common-law causes of
action when the premises underlying those duties and
causes of action have changed. In those instances,
what has mattered in determining the constitutionality
of the legislature's action is the reason for the
legislative change measured against the extent to
which the legislature has departed from the common
law. See Perozzi, 149 Or. at 3 4 8, 4 0 P. 2d 1009. That
is, we have considered, among other things, whether
the common-law cause of action that was modified
continues to protect core interests against injury to
persons, property, or reputation or whether, in light
of changed conditions, the legislature permissibly
could conclude that those interests no longer require
the protection formerly afforded them. See Norwest,
293 Or. at 563, 652 P.2d 318 (discussing legislative
abolition of common-law torts of criminal conversation
and alienation of affections).
359 Or. 218-20.

This Court notes this analysis did not

eliminate the distinction between common-law personal-injury
cases and statute-based wrongful-death cases.

Instead the court

recognized the need to look to the common law when analyzing the
adequacy of a remedy and stated "common-law causes of action and
remedies provide a baseline for measuring the extent to which
subsequent legislation conforms to the basic principles" of the
remedy clause.

Id. at 218.

This Court also notes Plaintiff's case here does not
fall within any of the three categories announced in Horton that
14 - OPINION AND ORDER
App. 18

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 15 of 18

form the basis to find a violation of the remedy clause.

First,

the wrongful-death statute does not "alter[] a duty" or "den [y]
a person injured as a result of a breach of that duty any
remedy. "

Id. at 219.

Instead the wrongful-death statute

created a cause of action where none existed.

See Hughes v.

PeaceHealth, 344 Or. 142, 147 (2008) ("In Oregon, wrongful death
is an entirely statutory cause of action and has no basis in the
common law.").

The noneconomic statutory-damages cap similarly

does not deny a remedy that existed at common law, but merely
limits the liability for the statutorily-created cause of
action.

The court in Greist noted there was not a statutory

limit on noneconomic damages until the Oregon Legislature
enacted the damages cap, and, " [a]lthough that remedy is not
precisely of the same extent as that to which plaintiff was
entitled before the enactment [of the cap], that remedy is
substantial."

Id. at 219.

In addition, this case does not meet the requirements
of the second Horton category that applies a quid pro quo
analysis to determine whether "the legislature has sought to
adjust a person's rights and remedies as part of a larger
statutory scheme that extends benefits to some while limiting
benefits to others."

Id.

In Horton the court concluded the

Legislature's enactment of the OTCA did not alter the duty that
15 - OPINION AND ORDER
App. 19

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 16 of 18

doctors owed their patients, but instead limited a plaintiff's
remedy for a breach of that duty.

The Legislature also did not

limit or take away a plaintiff's existing remedy when it enacted
the wrongful-death statute, but instead created both a right and
a remedy that did not previously exist.

Although the Oregon

Court of Appeals ultimately concluded in Vasquez that the
statutory-damages cap was unconstitutional, the court noted the
statute "is not part of a quid pro quo statutory scheme as
understood in remedy clause of the Oregon constitution."

288

Or. App. at 520.
Finally, this case does not fall within the third
Horton category for eliminating common-law causes of action
because, as noted, the wrongful-death statute created a cause of
action where none existed at common law.

Pursuant to the

wrongful-death statute, Plaintiff has a claim and a potential
recovery of all her economic damages and up to $500, 000 in
noneconomic damages.

As the court held in Greist, Plaintiff's

remedy here (application of the statutory-damages cap) does not
offend the remedy clause of the Oregon Constitution.
B.

Defendant is entitled to judgment as a matter of law
that Plaintiff's damages are capped.
Plaintiff contends even if the cap on noneconomic

damages applies, the Court cannot make that determination until

16 - OPINION AND ORDER
App. 20

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 17 of 18

evidence of such damages is presented at trial, the amount of
damages is determined by the fact-finder, and the actual award
is then compared to the reduced damages under the statute to
determine whether recovery is "substantial."

Plaintiff,

however, does not cite to any authority to support this argument
and neither does Defendant address this issue in its Reply
brief.
Although Plaintiff has not pled a specific amount of
noneconomic damages, it is undisputed that Plaintiff seeks
recovery of $8,000,000 in damages for her husband's alleged
wrongful-death.

Viewing this fact in the light most favorable

to Plaintiff without speculating as to the extent of damages
that Plaintiff may or may not have suffered or the ultimate
application of the statute, the Court concludes as a matter of
the law that the $500,000 statutory-damages cap applies to
Plaintiff's recovery of noneconomic damages.

Thus, the Court

finds Defendant is entitled to prevail as a matter of law on
this issue at this stage of the proceedings.

CONCLUSION
For these reasons, the Court GRANTS Defendant's Motion

17 - OPINION AND ORDER
App. 21

Case 3:17-cv-00573-BR

Document 32

Filed 12/13/18

Page 18 of 18

(#27) for Partial Summary Judgment.
IT IS SO ORDERED.
DATED this 13th day of December, 2018.

ANNA J. BROWN
United States Senior District Judge

18 - OPINION AND ORDER
App. 22

Case 3:17-cv-00573-BR

Document 56

Filed 05/14/19

Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

Case No. 3:17-cv-00573-BR

REBECCA DIKES, Personal
Representative for the Estate of
Shawn C. Dikes,

JUDGMENT

Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant.

This action was tried by the Court without a jury on May 7-10, 2019.
Based on the Court's trial verdict dated May 10, 2019, the Court enters
judgment in favor of Defendant, the United States of America. The Court
orders that Plaintiff recover nothing and that the action be dismissed on the
merits.
IT IS SO ORDERED.
DATED this / Y

!""-

day of May, 2019.

ANNAJ. BROWN
United States Senior District Judge

Page 1 - JUDGMENT
App. 23

Case 3:17-cv-00573-BR

Document 55

Filed 05/10/19

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
REBECCA DIKES, Personal
Representative for the Estate of
Shawn C. Dikes,

3:17-cv-00573-BR
VERDICT

Plaintiff,
v.

UNITED STATES OF AMERICA,
Defendant.

BROWN, Senior Judge.
On May 7, 2019, this matter came on for trial to the Court
of the liability issues raised in the parties' Pretrial Order
(#38).

Over three full days of trial the parties stipulated to

various facts and introduced evidence in the form of exhibits and
testimony from fact and expert witnesses, at the conclusion of
which the parties rested as to the liability issues.

On May 10,

2019, the parties presented their closing arguments, and the
Court undertook its duty to deliberate as to the contested
factual and legal issues.

1-VERDICT
App. 24

Case 3:17-cv-00573-BR

Document 55

Filed 05/10/19

Page 2 of 2

The Court has carefully weighed and evaluated all of the
evidence and completed a thorough consideration of the parties'
arguments and the applicable legal standards.

The Court notes

the parties each have submitted significantly contested evidence
about sophisticated and complicated diagnostic and treatment
issues as to the care of Plaintiff's Decedent, Shawn Dikes,
following his liver transplant on May 18, 2012, and through the
date of his death on October 31, 2012.

Although the parties each

have submitted substantive and plausible evidence to support
their respective theories as to the liability issues, the Court
as trier-of-fact finds the opposing expert analyses are of equal
weight.

In addition, when considering the totality of credible

evidence, the Court as trier-of-fact cannot say on which side the
evidence weighs heavier.
Accordingly, the Court concludes Plaintiff has not sustained
her burden to prove that Defendant breached its duty of care in a
manner that was either "a substantial factor" or the "but for"
cause of the death of Shawn Dikes.

In turn, the Court hereby

enters its Verdict in favor of Defendant.
DATED this 10th day of May, 2019.

ANNA J. BROWN
United States Senior District Judge
2-VERDICT
App. 25

